U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Fabian Perpall v. United States of America,
S.Ct. No. 20-8322

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 15,
2021, and placed on the docket on June 15, 2021. The government’s response is due on July 15,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8322
PERPALL, FABIAN
USA

TIMOTHY CONE
TIMOTHY CONE, ESQ.
1615 NEW HAMPSHIRE AVE., NW
4TH FLOOR
WASHINGTON, DC 20009
2022624047
TIMCONE@COMCAST.NET

